FDIC Office of Inspector General Press Release: Potomac Man Sentenced in $13 Million Mortgage Fraud Scheme
UNITED STATES DEPARTMENT OF JUSTICE
United States Attorney's Office
District of Marlyand
Contact AUSA VICKIE E. LEDUC
FOR IMMEDIATE RELEASE
February 3, 2014
Potomac Man Sentenced in $13 Million Mortgage Fraud Scheme
Deliberately Avoided Learning the Truth as to the Fraudulent Nature of the Mortgages
Greenbelt, Maryland - U.S. District Judge Peter J. Messitte sentenced Jared Fanning, age 35, of Potomac, Maryland, today to 22 months in prison followed by three years of supervised release for wire fraud in connection with a scheme to fraudulently obtain mortgages worth approximately $13 million. Judge Messitte also entered an order that Fanning pay restitution and forfeiture of $108,355.21, the amount of loss attributable to him resulting from the scheme.
The sentence was announced by United States Attorney for the District of Maryland Rod J. Rosenstein; Special Agent in Charge Kathy A. Michalko of the United States Secret Service - Washington Field Office; Acting Inspector General Fred W. Gibson, Jr., Federal Deposit Insurance Corporation; and Special Agent in Charge Cary A. Rubenstein, U.S. Department of Housing and Urban Development.
According to his guilty plea, from June 2006 through June 2007, Fanning helped real estate agents Michael Abobor, Daniel Ofei and others obtain mortgages for the agents' clients.  During that time, Fanning learned that the information provided by the agents for mortgage applications was probably false.  For example, on multiple occasions, Fanning calculated debt-to-income and reported to the agents that the client had insufficient income.  The agents responded immediately with "forgotten" monthly income of hundreds of dollars or more, leading Fanning to suspect that the additional income information supplied by the real estate agents was false.  Despite Fanning's concerns, he helped the agents obtain 24 mortgages totaling approximately $13 million.
According to evidence presented at the hearing, as a result of the fraudulent scheme, financial institutions suffered over $4.5 million in actual losses as a result of the financial transactions in which Fanning played a part.
Michael Abobor, age 38, and Daniel Ofei, age 39, both of Bowie, Maryland previously pleaded guilty to their roles in the conspiracy. Judge Messitte sentenced Abobor to 51 months in prison and ordered him to forfeit $2,026,205 and pay restitution of $1,832,650. Judge Messitte sentenced Ofei to 37 months in prison and ordered Ofei to pay restitution of $5,950,000.  Two other co-conspirators of Ofei and Ababor in the broader scheme, Emeka Udeze, age 38 of Bowie, a licensed mortgage broker, and Shola Risikat Balogun, age 47, of Upper Marlboro, Maryland, have also pleaded guilty and await sentencing.
The Maryland Mortgage Fraud Task Force was established to unify the agencies that regulate and investigate mortgage fraud and promote the early detection, identification, prevention and prosecution of mortgage fraud schemes. This case, as well as other cases brought by members of the Task Force, demonstrates the commitment of law enforcement agencies to protect consumers from fraud and promote the integrity of the credit markets. Information about mortgage fraud prosecutions is available www.justice.gov/usao/md/Mortgage Fraud/index.html.
This law enforcement action is part of President Barack Obama's Financial Fraud Enforcement Task Force.  President Obama established the interagency Financial Fraud Enforcement Task Force to wage an aggressive, coordinated and proactive effort to investigate and prosecute financial crimes.  The task force includes representatives from a broad range of federal agencies, regulatory authorities, inspectors general, and state and local law enforcement who, working together, bring to bear a powerful array of criminal and civil enforcement resources. The task force is working to improve efforts across the federal executive branch, and with state and local partners, to investigate and prosecute significant financial crimes, ensure just and effective punishment for those who perpetrate financial crimes, combat discrimination in the lending and financial markets, and recover proceeds for victims of financial crimes.
United States Attorney Rod J. Rosenstein thanked Assistant U.S. Attorney Sujit Raman, who prosecuted the case.
# # #